Roderick and Solange MacArthur Justice Center
375 East Chicago Avenue
Chicago, IL 60611
macarthurjusticecenter.org

David M. Shapiro
Director, Supreme Court & Appellate Program
david.shapiro@macarthurjustice.org
O 312 503 0711
F 312 503 1272

June 17, 2021
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: City of Tahlequah v. Bond, No. 20-1668
Dear Mr. Harris,
The petition for certiorari in this matter was filed on May 27, 2021, and placed on the
docket on June 1, 2021. Respondent has not previously sought an extension, and his response is
currently due on July 1, 2021.
Pursuant to Supreme Court Rule 30.4, Respondent respectfully requests a 14-day extension
of time to file his response up to and including July 15, 2021.
This extension is necessary because undersigned counsel did not represent Respondent in
the proceedings below and therefore requires more time to review the record in this matter and
respond to the petition. In addition, the ongoing Covid-19 pandemic and related closures have
caused additional burdens on counsel’s time unrelated to his legal practice. An extension of 14
days will allow counsel for Respondent to prepare a comprehensive response that fully addresses
the issues raised by Petitioner and will aid the Court’s efficient resolution of this matter.
Respectfully Submitted,

David M. Shapiro
Counsel for Respondent Austin P. Bond,
as Special Administrator of the Estate of
Dominic F. Rollice, Deceased
cc: Paul D. Clement, Counsel for Petitioner

